Audit of USAID/Cambodia’s Monitoring of the
Performance of Its HIV/AIDS Program


Audit Report No. 5-442-02-002-P

June 21, 2002




                    Philippines
______________________________________________________________________________________________________________________________________________________________________________________________




                                           U.S. AGENCY FOR
                                              INTERNATIONAL
                                                Development
                                           RIG/Manila


                                           June 21, 2002

                                           MEMORANDUM
                                           FOR:                         Mission Director, USAID/Cambodia, Lisa Chiles

                                           FROM:                        RIG/Manila, Bruce N. Boyer

                                           SUBJECT:                     Audit Report for the Audit of USAID/Cambodia's Monitoring
                                                                        of the Performance of Its HIV/AIDS Program, Report No. 5-
                                                                        442-02-002-P

                                           This is our final report on the subject audit. We reviewed your comments to
                                           the draft report, made some revisions based on them, and included the
                                           comments in their entirety as Appendix II.

                                           This report includes six recommendations to be addressed by
                                           USAID/Cambodia. Based on your comments to the draft report, we consider
                                           management decisions to have been made on all six recommendations.
                                           Please advise the Bureau for Management, Office of Management Planning
                                           and Innovation when final actions are complete.

                                           I appreciate the cooperation and courtesies extended to my staff during the
                                           audit.




                                                                                                                                                                                                 1
 ______________________________________________________________________________________________________________________________________________________________________________________________




Table of                                    Summary of Results                                                                                                               3
Contents
                                            Background                                                                                                                       3

                                            Audit Objectives                                                                                                                 6

                                            Audit Findings

                                                         Did USAID/Cambodia monitor performance of its                                                                       6
                                                         HIV/AID program in accordance with Automated
                                                         Directives System (ADS) guidance?

                                                                  Need to Strengthen Performance Monitoring                                                                  10
                                                                  Plan and Establish Performance Targets

                                                                  Mission Should Assess Data Quality                                                                         13

                                                                  PSI Needs to Implement Controls Over its                                                                   14
                                                                  Operations in Cambodia

                                                                  Need to Establish Performance Measures for                                                                 19
                                                                  Children Affected by AIDS Activities

                                                         Is USAID/Cambodia achieving intended results                                                                        20
                                                         from its HIV/AIDS program?

                                                                  Increase Availability of Condoms to Provinces and                                                          24
                                                                  Military Bases

                                                         What is the status of USAID/Cambodia’s efforts to                                                                   27
                                                         meet anticipated HIV/AIDS reporting requirements?

                                            Management Comments and Our Evaluation                                                                                           28

                                            Appendix I - Scope and Methodology                                                                                               30

                                            Appendix II – Management Comments                                                                                                32

                                            Appendix III – Rapid Scale-Up, Intensive Focus, and Basic                                                                        41
                                            Countries

                                            Appendix IV – Summary of USAID/Cambodia’s                                                                                        42
                                            Performance Monitoring Controls Reviewed by the Audit



                                                                                                                                                                                                  2
______________________________________________________________________________________________________________________________________________________________________________________________




 Summary of                               USAID/Cambodia complied with some of the Automated Directives System
 Results                                  (ADS) guidance in monitoring the performance of its HIV/AIDS program.
                                          (See page 6.) However, the audit found that the Mission needs to strengthen
                                          its monitoring system by preparing a performance monitoring plan in
                                          accordance with USAID guidance for its recently approved strategic plan, by
                                          establishing performance targets, and by assessing data quality. (See page
                                          10.) Moreover, USAID/Cambodia needs to address several areas requiring
                                          management attention. These areas, discussed on pages 14 to 20, include: (1)
                                          ensuring that its implementing partner, Population Services International, has
                                          implemented adequate controls over its operations in Cambodia, and (2)
                                          establishing performance measures for children affected by AIDS activities.

                                           As of year 2000, the Mission had exceeded the intended results for one of the
                                           three indicators reviewed (Condom Sales), but the audit cannot draw a
                                           conclusion on the other two (Condom Use and STD Care). While the reported
                                           results for Condom Use have shown an increasing trend over the last several
                                           years, the Mission did not set performance targets for the indicator. Similarly,
                                           the Mission did not establish performance targets for the STD Care indicator,
                                           and a baseline for this indicator has only recently been established. (See pages
                                           20 to 24.) In addition, the Mission should ensure that Population Services
                                           International makes condoms available to provinces outside of Phnom Penh,
                                           especially rural areas where about 83 percent of Cambodians live, and to
                                           military bases in remote locations. (See pages 24 to 26.)

                                           Finally, in response to the increased USAID funding for HIV/AIDS, USAID has
                                           drafted new Monitoring and Evaluation Guidance. The guidance establishes
                                           several global targets that USAID is expected to achieve. The guidance also
                                           requires missions to monitor and report progress of HIV/AIDS programs using
                                           standard indicators. USAID/Cambodia has already established some indicators
                                           similar to those required by the guidance and is preparing to meet additional
                                           reporting requirements under its recently approved new strategic plan. (See
                                           pages 27 to 28.)


Background                                 USAID funding for HIV/AIDS (Human Immunodeficiency Virus/Acquired
                                           Immune Deficiency Syndrome) has increased dramatically over the past three
                                           years: from $139 million in fiscal year 1999 to $330 million in fiscal year
                                           2001 (see graph on next page).1 USAID is organizing its response to
                                           HIV/AIDS around three categories of countries: rapid scale-up countries,
                                           intensive focus countries, and basic countries. These categories describe the
                                           resources that USAID will apply and expectations as to when a measurable

                                          1
                                              Information was provided by USAID and is unaudited.




                                                                                                                                                                                                 3
______________________________________________________________________________________________________________________________________________________________________________________________




                                           impact might be achieved. (See Appendix III for a description of these
                                           categories.) For example, rapid scale-up countries are defined as countries
                                           that will receive a significant increase in resources to achieve a measurable
                                           impact within one to two years. USAID plans to increase funding to rapid
                                           scale-up countries to reduce HIV prevalence rates, and to increase support
                                           services for people living with HIV/AIDS.


                                                                                       USAID's HIV/AIDS Funding

                                                                                    $350
                                                                                    $300
                                                               Million of Dollars
                                                                                    $250
                                                                                    $200
                                                                                    $150
                                                                                    $100
                                                                                     $50
                                                                                      $0
                                                                                             1999                  2000                   2001


                                                 This chart depicts USAID’s HIV/AIDS funding levels for fiscal years 1999 to 2001:
                                                 $139 million for 1999, $190 million for 2000, and $330 million for 2001.

                                           Cambodia, with an estimated population of 12 million, has the highest HIV
                                           prevalence rate of any country in Asia and is one of four rapid scale-up
                                           countries. The Cambodian National Census has estimated that 169,000
                                           Cambodians were living with HIV/AIDS in 2000, or 2.8 percent of the
                                           sexually active adult population. Factors driving the HIV/AIDS epidemic in
                                           Cambodia include: extensive solicitation of sex by Cambodian men; high
                                           prevalence of sexually transmitted diseases (STDs) that are drug resistant;
                                           inadequate national health facilities; mobility of the population, and the
                                           trafficking of children and women. Unprotected heterosexual sex is the
                                           dominant mode of HIV transmission in Cambodia.2

                                           USAID/Cambodia funding for HIV/AIDS activities increased from $2.5 million
                                           in fiscal year 1999 to $10 million in fiscal year 2001.3 The Mission has focused
                                           its efforts in combating the HIV/AIDS epidemic on effecting behavioral change
                                           and improving STD Care. Mission activities have targeted high-risk groups
                                           2
                                               HIV/AIDS Briefs, Cambodia and HIV/AIDS Summary, United States Agency for
                                               International Development, May 2001.
                                           3
                                               USAID/Cambodia's Resource Request and Results Review Report, April 2001.




                                                                                                                                                                                                 4
______________________________________________________________________________________________________________________________________________________________________________________________




                                           which drive the HIV/AIDS epidemic including brothel-based commercial sex
                                           workers and their clients (especially uniformed servicemen), freelance sex
                                           workers (beer promoters and bar girls), and mototaxi drivers.

                                           USAID/Cambodia has three major partners implementing its HIV/AIDS
                                           prevention activities: Family Health International (FHI), Population Services
                                           International (PSI), and the Khmer HIV/AIDS Non-Governmental Organization
                                           Alliance (KHANA). In addition, the Mission has funded a number of smaller
                                           prevention programs through other partners. A breakdown of the Mission's
                                           funding by implementing partner is shown in the following chart.


                                                                                                 USAID/Cambodia
                                                                                        Obligations for HIV/AIDS Activities
                                                                                            for Fiscal Years 1999-2001

                                                                                 $3.5
                                                                                 $3.0
                                                           Millions of Dollars




                                                                                 $2.5
                                                                                                                                                                       2001
                                                                                 $2.0
                                                                                                                                                                       2000
                                                                                 $1.5
                                                                                 $1.0                                                                                  1999
                                                                                 $0.5
                                                                                 $0.0
                                                                                        PSI            FHI               KHANA                  Other
                                                                                         Major Implementing Partners & Other



                                                  This chart illustrates the breakdown of Mission funding by implementing partner for
                                                  fiscal years 1999 to 2001. Funding levels for fiscal year 2001 are as follows: $ 1.8
                                                  million for PSI, $2.1 million for FHI, $0.8 million for KHANA and a total of $2.9
                                                  million for other partners and certain program positions.4




                                           4
                                               Information was provided by USAID/Cambodia and is unaudited.



                                                                                                                                                                                                 5
 ______________________________________________________________________________________________________________________________________________________________________________________________




Audit Objectives                            This audit is one of a series of audits to be conducted worldwide of USAID’s
                                            monitoring of the performance of its HIV/AIDS program at the mission level.
                                            The Performance Audits Division of USAID’s Office of Inspector General
                                            (OIG) is leading the audits. The Regional Inspector General, Manila
                                            (RIG/Manila) conducted this audit.

                                            The audit objectives and the scope and methodology for the audit were
                                            developed in coordination with USAID’s HIV/AIDS Division in the Bureau for
                                            Global Programs, Field Support and Research (now the Bureau for Global
                                            Health). RIG/Manila performed this audit to review USAID/Cambodia’s
                                            HIV/AIDS program and specifically, to answer the following audit objectives:

                                            •      Did USAID/Cambodia monitor performance of its HIV/AIDS program in
                                                   accordance with Automated Directives System guidance?

                                            •      Is USAID/Cambodia achieving intended results from its HIV/AIDS
                                                   program?

                                            •      What is the status of USAID/Cambodia efforts to meet anticipated
                                                   HIV/AIDS reporting requirements?

                                            Appendix I describes the audit’s scope and methodology.


 Audit Findings                             Did USAID/Cambodia monitor performance of its HIV/AIDS program in
                                            accordance with Automated Directives System (ADS) guidance?

                                            USAID/Cambodia complied with some of the Automated Directives System
                                            (ADS) guidance in monitoring performance of its HIV/AIDS program.
                                            However, USAID/Cambodia needs to strengthen its monitoring system by (1)
                                            preparing a performance monitoring plan that meets the requirements of USAID
                                            guidance; (2) establishing performance targets, and (3) assessing the quality of
                                            performance data. Moreover, USAID/Cambodia needs to increase the
                                            monitoring of their activities and to address several areas requiring management
                                            attention. These areas discussed on pages 14 to 20 include: (1) ensuring that its
                                            implementing partner, Population Services International, implements controls
                                            over its operations in Cambodia, and (2) establishing performance measures for
                                            activities for children affected by AIDS.

                                            ADS guidance outlines USAID policies and procedures for implementing a
                                            performance monitoring system which includes monitoring measures such as
                                            performance monitoring plans, establishing performance baselines and targets,



                                                                                                                                                                                                  6
______________________________________________________________________________________________________________________________________________________________________________________________




                                           evaluations, portfolio reviews, progress reports, and special studies. In
                                           accordance with the ADS, the Mission prepared a performance monitoring plan
                                           (PMP) which contained some of the required information, i.e., indicator
                                           definition, data source, data collection methods, data collection schedules, and
                                           disclosed data limitations. In addition, the Mission established baselines for
                                           some indicators in the plan. The Mission has also used other monitoring tools
                                           such as portfolio reviews and a mid-term evaluation of Family Health
                                           International’s IMPACT (Implementing AIDS Prevention and Care) project.

                                           USAID/Cambodia organizes its HIV/AIDS activities under the special objective:
                                           “Reduced Transmission of STD/HIV among High-Risk Populations.” This
                                           special objective has three intermediate results which focus on policy advocacy,
                                           condom use, and STD care. The Mission included twelve performance
                                           indicators in its PMP to report progress of its on-going activities. The schematic
                                           on the next page reflects the relationship between the HIV/AIDS special
                                           objective, the three intermediate result objectives, and the performance
                                           indicators under each objective. The shaded boxes represent the three indicators
                                           which the Mission officials and auditors selected for this review (these three
                                           indicators are also marked by asterisks.)




                                                                                                                                                                                                 7
______________________________________________________________________________________________________________________________________________________________________________________________




   Graphic Presentation of USAID/Cambodia's HIV/AIDS Performance Indicators

                                                                     Special Objective:
                                                         Reduced transmission of STD/HIV among
                                                                   high-risk populations




                 Prevalence of selected STDs among                                                      Percentage of men in target areas
                commercial sex workers in target areas                                               reporting sex with two or more partners
                                                                                                                in the past month
                        AIDS Program Effort Index




    Intermediate Result 1:                                       Intermediate Result 2:                                      Intermediate Result 3:
    Policy makers are informed                                   Reduced high-risk behaviors in                              Model STD and reproductive health service
    about the HIV/AIDS epidemic in                               target areas                                                delivery program for high-risk populations in
    Cambodia                                                                                                                 target areas



       Percentage of brothels in target                                 * Percentage of men in target                                           * Percentage of STD clients
       areas participating in IMPACT                                    areas reporting always using                                            in targeted facilities assessed
       project activities                                               condoms with commercial sex                                             and treated according to
                                                                        workers during previous three                                           national standards
                                                                        months

       Policies, guidelines or
       materials used or adopted by                                      Percentage of men in target areas
       other organizations                                               reporting always using condoms                                          Percentage of STD clients in
                                                                         with "mistresses" in previous                                           targeted facilities provided
                                                                         three months                                                            information on condoms and
                                                                                                                                                 partner notification



                                                                         Percentage of female commercial                                         Percentage of clients reporting
                                                                         sex workers in target areas                                             clinic as first source of
                                                                         reporting consistent condom use                                         treatment for STD-related
                                                                         with clients over past week                                             complaint



                                                                         * Number of Number One
                                                                         Condoms sold in project areas
                                                                         in past 12 months




  This graphic shows USAID/Cambodia's performance indicators for its HIV/AIDS program, both at the "special objective"
          and at the "intermediate results" levels. The three indicators selected for review are marked by asterisks.




                                                                                                                                                                                                 8
______________________________________________________________________________________________________________________________________________________________________________________________




                                           At the start of the audit work, the auditors in collaboration with Mission officials
                                           decided to focus the review on the three highlighted performance indicators in
                                           the previous diagram—namely: (1) Condom Sales, (2) Condom Use, and (3)
                                           STD Care. All three indicators are at the intermediate results level for the
                                           activities the Mission is carrying out in targeted areas.5 Mission officials
                                           believed that these three indicators give the best overall sense of progress being
                                           made in its HIV/AIDS programs in year 2000. (See map below for location of
                                           the IMPACT project’s target areas.)

                                                                                                          Cambodia




                                                The highlighted locations on this map illustrate the IMPACT project target areas for years
                                                1998 to 2000. The target areas consist of Phnom Penh, Kandal, and Kampong Cham.

                                           For the three indicators reviewed, the Mission's performance monitoring plan
                                           provided some of the information required for such a plan, such as indicator
                                           definition, data sources, data collection methods, schedules for data collection,
                                           and the disclosure of known data limitations. In addition, the results reported
                                           for one of the three indicators, Condom Use, agreed with source documents
                                           specified in the plan. Nonetheless, the audit found certain areas in which the
                                           performance monitoring system could be improved. For example, the
                                           Mission’s performance monitoring plan was not as complete as specified by

                                           5
                                               According to the Mission’s performance monitoring plan, target areas for the IMPACT
                                               project consist of Phnom Penh, Kampong Cham, and Kandal for results related to condom
                                               use and STD care indicators. The target area for condom sales is the entire country.



                                                                                                                                                                                                 9
______________________________________________________________________________________________________________________________________________________________________________________________




                                           ADS guidance. In addition, no performance targets were established for two of
                                           the three indicators, and no data quality assessments were conducted for any of
                                           the three indicators. These opportunities for improvement are discussed below
                                           and summarized in Appendix IV.

                                           Need to Strengthen Performance Monitoring Plan
                                           And Establish Performance Targets

                                           ADS 201.3.4.13 states that at a minimum, a performance monitoring plan (PMP)
                                           must provide a detailed and precise definition of performance indicators to be
                                           tracked; specify the source, method and schedule for data collection; and assign
                                           responsibility for data collection to a specific office, team, or individual.
                                           Similarly, a PMP must disclose known data limitations and describe procedures
                                           for data quality assessments. In addition, USAID guidance requires missions to
                                           review and update their respective performance monitoring plans annually and
                                           to establish performance targets. Nevertheless, our review of the Mission's
                                           PMP concluded that the Mission’s PMP for the HIV/AIDS special objective did
                                           not meet all the requirements of USAID guidance. In addition, the Mission did
                                           not establish performance targets for Condom Use and STD Care indicators.
                                           According to Mission officials, the principal causes for these shortcomings were
                                           (1) the Mission's Program Office being short-staffed, and (2) a change in the
                                           Mission’s plans and priorities—and the development of a new strategic plan.

                                           Specifically, for the three indicators reviewed, the Mission’s PMP did not follow
                                           USAID guidance in four areas:

                                                 Providing precise definitions of indicators;
                                                 Specifying the source and method for data collection;
                                                 Assigning responsibility for data collection; and
                                                 Describing the procedures for data quality assessments.

                                           Without a complete and updated performance monitoring plan, the Mission does
                                           not have an effective monitoring and reporting system. Similarly, without
                                           establishing performance targets, the Mission can not judge whether its
                                           HIV/AIDS program is making progress as planned.

                                           The following section will discuss the first three of the four shortcomings in the
                                           Mission’s PMP, followed by a short discussion on the need to establish
                                           performance targets. The fourth shortcoming in the PMP (establishing
                                           procedures for data quality assessments) will be discussed in a separate finding
                                           entitled the “Mission Should Assess Data Quality.”

                                           Providing Precise Definition of Indicators - USAID policy requires a
                                           performance monitoring plan to provide consistent and precise definition of
                                           performance indicators to assure that comparable data is collected on a regular



                                                                                                                                                                                             10
______________________________________________________________________________________________________________________________________________________________________________________________




                                           and timely basis. The audit found that the Mission’s performance monitoring
                                           plan did not fully provide consistent and precise definition for the three
                                           indicators reviewed. Therefore, performance comparability over the years was
                                           obscured.

                                           For instance, the Mission’s performance monitoring plan defines the condom
                                           sales indicator as “Number of Number One condoms sold in the project areas in
                                           the last twelve months.” However, we noted a discrepancy between what the
                                           indicator was established to measure and what was being measured. While the
                                           indicator was to measure the number of condoms sold, the Mission has instead
                                           reported the number of condoms distributed. According to Population Services
                                           International (PSI), the number of condoms distributed includes two
                                           components: actual condom sales, and free samples of condoms that PSI and its
                                           distributing partners give away for promotional purposes. The distinction
                                           between condoms sold and condoms distributed is important for two reasons:
                                           first, giving away free condoms does not constitute a sales transaction. And
                                           second, PSI and its affiliated partners have given away a large number of free
                                           condoms over the years. For example, the number of free samples ranged from
                                           700,000 in year 2000 to 1.2 million in year 2001—or four to eight percent of
                                           total sales in each year respectively.

                                           The condom use indicator lacks clarity as to how the change in the value is to be
                                           measured. For example, the timeframes for condom use have varied over the
                                           years. In 1997 and 1998, questions in behavioral surveillance surveys about
                                           using condoms did not specify a timeframe. Thus, the indicator was defined as
                                           “Percentage of men in target areas reporting always using condoms with
                                           commercial sex workers in the most recent sex act.” However, in 1999 the
                                           timeframe "…in the last three months" was added to the definition to replace
                                           “…in the most recent sex act.” Therefore, the condom use definition was
                                           changed to “Percentage of men in target areas reporting always using condoms
                                           with commercial sex workers in the previous three months.” The Mission's
                                           results report stated that the change of the indicator definition was necessary to
                                           conform to the data available from Cambodia’s national behavioral surveillance
                                           survey.

                                           Finally, the Mission’s PMP did not precisely define the STD Care indicator.
                                           The indicator as currently defined does not specify the types of sexually
                                           transmitted diseases being evaluated and treated, making it difficult to ensure
                                           that performance results are consistently collected. In order for the Mission to
                                           be able to measure the results of its HIV/AIDS program, it needs to establish a
                                           set of consistently and precisely defined indicators to track performance
                                           progress. Otherwise, the Mission has no assurance that it is reporting accurate
                                           and comparable results over time.




                                                                                                                                                                                             11
______________________________________________________________________________________________________________________________________________________________________________________________




                                           Specifying the Source and Method for Data Collection - USAID policy
                                           requires missions to specify the source and the method of collecting performance
                                           data in their performance monitoring plans (PMP) in order to ensure that
                                           different people at different times would collect identical types of data for the
                                           specific indicator. For the STD Care indicator, the Mission planned an external
                                           evaluation for the baseline assessment in 1999 and stated so in its PMP.
                                           However, the audit found that the baseline was assessed through a STD survey
                                           study completed by two of Family Health International’s staff members in April
                                           2000. According to Family Health International officials, the baseline value the
                                           Mission reported in year 2001 was erroneous and being recalculated.
                                           Additionally, the Mission did not specify in its PMP how the baseline data was
                                           to be collected.

                                           Management for results requires missions to hold implementing partners
                                           accountable for results. To achieve such accountability, USAID/Cambodia
                                           should increase its monitoring of the cooperating partners’ activities to ensure
                                           that the HIV/AIDS program is carried out as planned. Additionally, the Mission
                                           should specify the methodology by which baseline data was collected in its PMP
                                           in order to have reasonable assurance that comparable performance data is
                                           collected for the indicator over time.

                                           Assigning Responsibility for Data Collection - USAID policy requires that
                                           missions assign the responsibility for data collection to a specific office, team, or
                                           individual in their performance monitoring plans to ensure timely collection of
                                           performance data. For the three indicators reviewed, the Mission’s PMP did not
                                           identify who was responsible for data collection. Without assigning such
                                           responsibility, the Mission has no assurance that data is collected as required.

                                           Establishing Performance Targets - Agency guidance requires the
                                           establishment of performance targets. ADS 201.3.4.10(b) states that strategic
                                           objective teams should identify performance measures and formulate activities
                                           required to achieve those results for which the operating unit is taking
                                           responsibility. Per the ADS, the next steps include “developing a complete set
                                           of performance indicators, establishing related baselines and targets, and
                                           developing a Performance Monitoring Plan.” USAID guidance requires
                                           missions to establish performance baselines and targets during the program
                                           planning stage. Nonetheless, Mission officials were not entirely aware of such
                                           requirements. In fact, Mission officials were not certain whether they are
                                           required to report on the progress of the program because HIV/AIDS activities
                                           are organized under a special objective. Our review of the three indicators
                                           found that the Mission did not establish performance targets for two of the three:
                                           Condom Use and STD Care.

                                           Neither the Mission nor its implementing partners established performance
                                           targets for these two indicators. As for the third indicator, Condom Sales, the
                                           cooperative agreement with Population Services International established targets


                                                                                                                                                                                             12
______________________________________________________________________________________________________________________________________________________________________________________________




                                           for expected total sales as well as expected sales to provinces outside of Phnom
                                           Penh. Without establishing performance targets, the Mission cannot judge
                                           whether progress is being made as planned.

                                           It is apparent from the above discussion that the Mission's performance
                                           monitoring plan did not completely meet USAID policy requirements, partially
                                           because Mission officials were not fully aware of those requirements and, to
                                           some extent, because of being short-staffed. According to Mission officials, the
                                           Monitoring and Evaluation Advisor position was vacant since early 2000.
                                           However, it should be noted that this position was filled in February of year
                                           2002.

                                           Without a performance monitoring plan that fully complies with USAID policy,
                                           the effectiveness of the Mission's monitoring system may be compromised.
                                           Equally important for effective performance monitoring system is establishing
                                           performance targets, as targets allow missions to judge whether progress is being
                                           made as planned. We therefore, are making the following recommendations.

                                                        Recommendation No. 1: We recommend that USAID/Cambodia:
                                                        1.1 prepare a performance monitoring plan for the Mission’s new
                                                            strategic plan in accordance with the Automated Directives
                                                            System.

                                                         1.2 establish performance targets as required by USAID guidance
                                                             to allow a determination of whether the HIV/AIDS program is
                                                             making progress.

                                           Mission Should Assess Data Quality

                                           USAID policy requires missions to assess the quality of performance data when
                                           establishing indicators and at least every three years after that. The Mission’s
                                           implementing partners were the source of the performance data we reviewed.
                                           USAID policy requires missions to assess the quality of such data to ensure that
                                           performance information is reliable. Nevertheless, the audit found that the
                                           Mission did not assess the quality of performance data for the three indicators
                                           reviewed by the audit. In fact, the Mission reported erroneous results for
                                           Condom Sales and STD Care indicators, a situation that likely would have been
                                           discovered had an assessment been done as required. Mission officials stated
                                           that the Mission did not assess data quality because the Mission’s Program
                                           Office has been short-staffed. In addition, the Mission’s performance
                                           monitoring plan did not describe the procedures needed for conducting data
                                           quality assessments.

                                           Because of a failure to do data quality assessments, erroneous data was reported.
                                           For example, the Mission measures condom sales by the number of condoms



                                                                                                                                                                                             13
______________________________________________________________________________________________________________________________________________________________________________________________




                                           sold in project areas during the last 12 months. For year 2000, Population
                                           Services International (PSI) reported total sales of 16 million condoms, and had
                                           established a corresponding annual target of 14 million. Accordingly, the
                                           Mission reported to Washington that PSI had increased condom sales to 16
                                           million, an excess of 20 percent over the implementing partner's annual target.
                                           However, as explained above, the indicator actually measured the number of
                                           condoms distributed—not sold. Had the Mission assessed the quality of its
                                           cooperating partner’s performance data, it would have reported total sales of
                                           only 15.4 (16 million distributed minus 0.6 million in free samples), or an excess
                                           of only ten percent over the annual target.

                                           Additionally, performance data reported for STD Care was misstated.
                                           According to Family Health International officials, the baseline figure of 64
                                           percent which the Mission reported for the year 2000 was incorrect and is being
                                           re-calculated.

                                           Periodic data quality assessments provide management with reasonable
                                           assurance that data quality is sufficient for sound management decisions.
                                           Without data quality assessments, USAID/Cambodia did not have reasonable
                                           assurance that data used to make management decisions were reliable.

                                                         Recommendation No. 2: We recommend that USAID/Cambodia
                                                         assess the quality of performance data and document the procedures
                                                         to be used in the performance monitoring plan as required by
                                                         Agency directives.

                                           PSI Needs to Implement Controls Over
                                           Its Operations in Cambodia

                                           USAID/Cambodia entered into an agreement with Population Services
                                           International (PSI) in 1996 to supply and market condoms under the
                                           HIV/AIDS program in Cambodia. In return, the Mission agreed to pay PSI's
                                           operating costs up to $6.5 million. However, the audit found that controls
                                           over PSI's operations were generally inadequate, particularly in the areas of
                                           cash transactions, condom sales, condom inventory, segregation of duties, and
                                           procurement. Although PSI’s own policies established control requirements
                                           over these areas, the PSI program office in Cambodia has yet to comply with
                                           them. Consequently, we are not certain whether PSI has established an
                                           effective control environment to protect project resources from theft, waste, or
                                           misuse. In fact, during the course of the audit, the auditors received
                                           numerous allegations of fraud being committed by PSI personnel. These
                                           allegations were subject to a joint audit and investigative review.

                                           There are Federal regulations—as well as PSI policies—that require the
                                           establishment of adequate internal controls. The U. S. Code of Federal



                                                                                                                                                                                             14
______________________________________________________________________________________________________________________________________________________________________________________________




                                           Regulations requires PSI to maintain effective controls over and accountability
                                           for all funds, property, and other assets under the cooperative agreement with
                                           USAID/Cambodia. Nonetheless, our review of the Mission’s monitoring
                                           activities concluded that the Mission fell short of adequately collaborating with
                                           PSI officials to establish or monitor these controls. In addition, PSI personnel
                                           were generally unaware of such requirements.

                                           Our review covered controls pertained to:

                                                 Cash Transactions,
                                                 Condom Sales,
                                                 Condom Inventory,
                                                 Segregation of Duties, and
                                                 Procurement.

                                           The discussion below details the lack of oversight and internal control
                                           weaknesses found in these areas.

                                          Cash Transactions - PSI policy requires country program offices to establish
                                          internal controls to safeguard cash resources. Specifically, PSI policy holds
                                          country representatives responsible for establishing controls. These controls
                                          include the following:

                                                  Cash receipts greater than $500 must be deposited in the same business day
                                                   (cash less than that amount must be deposited within three business days);

                                                Personnel having custody of cash may not also record sales transactions or
                                                 make cash deposits;

                                                 Petty cash disbursements should not exceed $50; and

                                                 Disbursements must be made by check to bona-fide business entities.

                                           Nevertheless, PSI did not implement the four controls mentioned above in many
                                           instances. These instances are described below.

                                                 1.       Contrary to the same-business-day deposit policy, PSI kept cash receipts
                                                          from the sale of condoms in a safe and only deposited the cash in the
                                                          bank once a month. According to PSI officials, cash was not deposited
                                                          in a timely manner so that it could be used to pay for day-to-day
                                                          operating expenses. For example, cash-on-hand from the sale of
                                                          condoms and contraceptive pills in August 2001 reached $21,000 and
                                                          was not deposited in the bank until September 20, 2001.




                                                                                                                                                                                             15
______________________________________________________________________________________________________________________________________________________________________________________________




                                                   2. In addition, the policy requiring segregation of the duties has not been
                                                      implemented. For example, sales representatives were allowed to
                                                      deposit cash receipts. Further, another sales representative had custody
                                                      of cash and sales records.

                                                   3. With regard to petty cash, the auditors noted a cash disbursement for
                                                      $450 for promotional items, in addition to six other petty cash
                                                      disbursements over the $50 dollar limit.

                                                   4.      Contrary to the policy requiring that checks be made out to bona-fide
                                                           business entities, PSI issued numerous checks in the business owner’s
                                                           name rather than to bona-fide business entities.

                                           Without adequate controls and oversight over cash transactions, PSI is
                                           heightening the risk of exposing its most liquid resources to loss or theft.

                                          Condom Sales - PSI's marketing and sales department, consisting of eight
                                          sales representatives and a marketing manager, sells condoms on a cash basis
                                          to non-governmental organizations and to wholesalers throughout Cambodia.
                                          According to PSI records, condom sales receipts totaled $170,074 and
                                          $135,941 in years 2000 and 2001, respectively, and approximately 15.4
                                          million condoms and 15.2 million condoms were sold respectively in those
                                          years.6

                                           PSI policy holds country representatives responsible for establishing a system of
                                           effective controls over sales including the following:

                                                Sales are to be recorded on the same day as the sales are made;

                                                Related duties are to be performed by different individuals; and

                                                Sales tickets are to be pre-numbered.

                                           However, controls over sales were not in place, a practice that could adversely
                                           affect PSI’s ability to protect its resources. The following examples illustrate
                                           control deficiencies.

                                                  1. Even though policy requires sales to be recorded on the same day sales
                                                     are made, the audit found that PSI management allowed sales to be
                                                     recorded whenever sales representatives return cash proceeds from the
                                                     condom sales to the office—once or twice a month at most.



                                          6
                                              The condom sales figures in years 2000 and 2001 have been adjusted for free samples given
                                              away. (See finding on page 24.)



                                                                                                                                                                                             16
______________________________________________________________________________________________________________________________________________________________________________________________




                                                  2. As for segregation of duties, PSI has yet to establish this control because
                                                     its management permits sales representatives to complete sales duties
                                                     from beginning to end. For example, sales representatives took sales
                                                     orders, delivered condoms, billed customers, and collected cash for
                                                     condoms sold.

                                                  3. With regard to pre-numbered sales tickets, even though PSI has used
                                                     such sales tickets, they are not accounted for on a regular basis. During
                                                     the audit, the auditors performed limited testing to confirm the existence
                                                     and accuracy of eleven randomly selected sales transactions. The
                                                     testing revealed that two sales tickets were missing for which duplicates
                                                     were created without authorization. More importantly, PSI neither
                                                     checked nor investigated the missing tickets.

                                           Without oversight and a properly designed and functioning system of controls,
                                           PSI has no way of knowing whether or not sales are recorded on time—or if
                                           sales are recorded at all.

                                          Condom Inventory - PSI purchases condoms from Thailand, and they are
                                          temporarily stored in an off-site warehouse before they are transferred to the
                                          main PSI building in Phnom Penh for packaging. The packaged condoms are
                                          then stored in two stockrooms before issuing them to sales representatives.

                                           PSI policy holds the country representative responsible for establishing
                                           warehouse controls in order to protect project commodities, equipment, and
                                           other materials. These controls include conducting a warehouse inventory at
                                           least twice a year.

                                           The audit revealed several problems with inventory management:

                                                   1. With regard to warehouse inventory policies, PSI officials stated that no
                                                      physical counts of inventory were performed in the years 2000 and 2001.
                                                      The auditors performed a physical count of condoms in the stockrooms
                                                      as of February 26, 2002 and noted discrepancies between manual records,
                                                      computerized records, and the actual physical count. The manual
                                                      records showed 14,609 cartons while the computerized records showed
                                                      14,922 cartons. The actual physical count was only 14,249, or a
                                                      shortage of 360 cartons when compared to the manual records and 673
                                                      cartons when compared to the computerized records.

                                                   2. The stockrooms did not have air conditioning (Condom packaging
                                                      generally requires storage in cool and dry places), and 36 boxes (1,800
                                                      cartons totaling 180,000 condoms) were stored out in the open in an
                                                      unsecured area outside the stockroom.




                                                                                                                                                                                             17
______________________________________________________________________________________________________________________________________________________________________________________________




                                           Without proper controls over inventory, PSI exposes its inventory to theft or
                                           loss. In addition, storing condoms under improper conditions may expose them
                                           to spoilage or damage. Without managing inventory as required by its own
                                           policy, PSI has not implemented measures that would reduce the risk of
                                           inventory loss and spoilage.

                                          Segregation of Duties - Segregation of duties is emphasized throughout PSI’s
                                          policies with the goal that no one individual should be responsible for more than
                                          one of the following duties: authorizing transactions, recording transactions,
                                          executing transactions, or having custody of assets.

                                           However, PSI's marketing manager performed almost all of the above duties
                                           with regard to promotional items. He determined the need for promotional
                                           items, procured them, received them, and also directed their distribution.
                                           Furthermore, even though PSI has some guidelines for distributing promotional
                                           items, its marketing department has not followed them consistently.

                                           PSI expended $111,991 and $109,526 in 2000 and 2001, respectively, for
                                           promotional items. These items consisted of watches, t-shirts, shorts, clocks,
                                           umbrellas, coasters, smocks, hats, calendars, key chains and cigarette lighters.
                                           PSI has not followed its own policy with regard to segregation of duties, a
                                           practice that increases the probability of unintentional errors or fraud—or the
                                           procurement of unneeded or unauthorized promotional items.

                                          Procurement - PSI policy requires field offices to establish a procurement
                                          function. PSI’s country representative stated that it was not feasible to set up a
                                          procurement function in the Cambodia office due to limited resources.
                                          Consequently, we are not certain that appropriate procurement practices are
                                          being followed.

                                          However, individual departments procured goods and services for their own
                                          activities. This practice undoubtedly introduces risks into the procurement
                                          process. Unneeded or unauthorized procurements can be made. Suppliers can
                                          be overpaid with kickbacks being made to employees. And there is an increased
                                          risk of resources being stolen or misused without detection.

                                          We recognize that no matter how well it is designed and operated, an internal
                                          control system can provide only reasonable assurance that resources are
                                          protected. However, without a system of controls—particularly in the area of
                                          procurement—the likelihood of fraud and irregularities increases.

                                                         Recommendation No. 3: We recommend that USAID/Cambodia
                                                         contract for a review of all expenditures charged under the
                                                         Population Services International agreement since 1998 for
                                                         allowability, reasonableness, and allocability.



                                                                                                                                                                                             18
______________________________________________________________________________________________________________________________________________________________________________________________




                                                         Recommendation No. 4: We recommend that USAID/Cambodia
                                                         work with Population Services International to establish a plan to
                                                         implement acceptable controls over project operations especially in
                                                         the areas of cash transactions, condom sales, condom inventory,
                                                         segregation of duties, and procurement.

                                           Need to Establish Performance Measures for
                                           Children Affected by AIDS Activities

                                          USAID Guidance on the Definition and Use of Child Survival and Disease
                                          Funds states that USAID has agreed with the Congress that in return for
                                          increased funding for HIV/AIDS, USAID will closely monitor the use and
                                          impact of such funds. This monitoring includes reporting on progress in
                                          reducing or keeping HIV prevalence low, providing access for HIV infected
                                          pregnant women to interventions that will reduce mother-to-child transmission
                                          and increasing support to orphans and children affected by AIDS.
                                          USAID/Cambodia funded a $1 million program for children affected by AIDS
                                          (CAA) that includes support to orphans affected by AIDS. Performance
                                          measures had yet to be established. Mission officials indicated that
                                          performance measures had not been established for this program because the
                                          program is relatively new. However, without such performance measures, the
                                          Mission will be unable to monitor or assess the development impact of its
                                          CAA activities.

                                           The HIV/AIDS epidemic in Cambodia has had a substantial impact on
                                           children, both through the loss of parents and the infection of children
                                           themselves. Since 1991 there has been an estimated 13,000 Cambodian
                                           children who lost one or both parents to AIDS.7 At the end of 1999, it was
                                           estimated that 5,400 Cambodian children under 15 years of age were living
                                           with HIV/AIDS, and that there were 11,650 Cambodian orphans due to AIDS
                                           under the age of 15.8

                                           USAID/Cambodia received supplemental funds of $1 million in fiscal year
                                           1999 to start children affected by AIDS activities. Family Health
                                           International and KHANA (Khmer HIV/AIDS Non-Governmental
                                           organization Alliance) have implemented a wide range of interventions
                                           through a network of 14 indigenous non-governmental organizations to
                                           address the needs of such children (infants, youths within families and street
                                           youths) who are vulnerable to or orphaned by AIDS.



                                           7
                                               Joint United Nations Programs on HIV/AIDS (UNAIDS) National AIDS Programs, 2000.
                                           8
                                               World Health Organization, Epidemiological Fact Sheet, Cambodia, 2000 Update.




                                                                                                                                                                                             19
______________________________________________________________________________________________________________________________________________________________________________________________




                                           USAID guidance (ADS 201.3.4.13) requires missions to utilize the PMP to
                                           define specific performance indicators, and to plan and manage the
                                           performance results collection process. As a result, Mission officials have
                                           therefore agreed that a performance measure for activities for children
                                           affected by AIDS will be established under the Mission's recently approved
                                           new strategic plan.

                                           Without such a performance measure, USAID/Cambodia is unable to
                                           systematically monitor and assess the development impact of its CAA
                                           activities. Performance measures are needed to judge the effectiveness of
                                           such interventions.

                                                         Recommendation No. 5: We recommend that
                                                         USAID/Cambodia include appropriate performance
                                                         measure(s) in its performance monitoring plan to measure
                                                         the results of its activities for children affected by AIDS.

                                           Is USAID/Cambodia achieving intended results from its HIV/AIDS
                                           program?

                                           As of the year 2000, the Mission exceeded the intended results for one of the
                                           three indicators reviewed: Condom Sales; however, the audit cannot draw a
                                           conclusion on the other two: Condom Use and STD Care. While reported
                                           results for Condom Use have shown an increasing trend over the last several
                                           years, the Mission did not set performance targets for the indicator in its results
                                           report until the year 2000. Similarly, no targets were established for the STD
                                           Care indicator. Thus, the audit cannot conclude definitively whether or not the
                                           Mission has achieved the intended results for these two indicators. In addition,
                                           program goals of distributing condoms outside of Phnom Penh, goals which
                                           were specified in the cooperative agreement between the Mission and Population
                                           Services International, were not being achieved as planned.

                                           The audit attempted to assess results achieved for the year 2000. However,
                                           measuring achievement of intended results in a given year is complicated by the
                                           fact that not all indicators are measured every year—and for one of the three
                                           indicators reviewed, the Mission was slow in establishing a baseline. According
                                           to the Mission's performance monitoring plan, some indicators are measured on
                                           an annual basis, while others are measured every two or three years. Therefore,
                                           of the three indicators selected for testing, the audit has had to evaluate progress
                                           in different years. For Condom Sales, we evaluated progress reported in year
                                           2000. For Condom Use, the audit evaluated results reported for year 1999. As
                                           for STD Care indicator, the Mission only established a baseline in year 2000,
                                           making it impossible for the audit to evaluate progress made as of that year.




                                                                                                                                                                                             20
______________________________________________________________________________________________________________________________________________________________________________________________




                                           Results achieved for these three indicators (Condom Sales, Condom Use, and
                                           STD Care) are discussed below, as well as results achieved for the program goal
                                           of distributing condoms outside of Phnom Penh.

                                           Condom Sales – The Mission's condoms sales indicator measures “The Number
                                           of 'Number One' condoms sold in the project area over the past 12 months.”9
                                           PSI managed this project and distributed condoms to non-governmental
                                           organizations, pharmacies, brothels, hotels, street vendors and market stalls.
                                           PSI had reported sales of 16 million and 16.4 million in the years 2000 and 2001
                                           respectively. However, as discussed on pages 10 and 11, these "sales" in fact
                                           included free samples that were given away for promotional purposes. The
                                           table below shows actual sales figures.

                                                            Condoms Distributed and Sold from 1996 to 2001
                                                                                  (unaudited)
                                                                                                 Free
                                                       Year    Targets         Distributed                  Sold
                                                             (million pieces) (million pieces) Samples (million pieces)
                                                                                                                                  (million pieces)
                                                       2001                    16.0                         16.4                          1.2                        15.2
                                                       2000                    14.0                         16.0                          0.7                        15.3
                                                       1999                    12.6                         12.9                          0.2                        12.7
                                                       1998                    13.2                         11.5                          0.2                        11.3
                                                       1997                    10.2                         10.5                          0.2                        10.3
                                                       1996                     8.5                          9.5                          0.1                         9.4

                                                This chart illustrates targets for condom sales, total condoms distributed, free samples
                                                distributed and adjusted sales of condoms for years 1996 to 2001. Distributed condoms
                                                are reduced by free samples given away for promotional purposes to arrive at actual
                                                condom sales.

                                           Although condom sales generally increased over time, they did not consistently
                                           meet or exceed performance targets (see table above). Project officials stated
                                           that lower sales figures in 2001 resulted, at least in part, from inventory
                                           depletion during a part of that year.

                                           Condom Use – Condom use is measured as the "Percentage of men in target
                                           areas reporting always using condoms with commercial sex workers in previous
                                           three months." The Mission has collected data for this indicator for uniformed
                                           servicemen, and has reported 70 percent use in 1999 to reflect progress made
                                           thus far. (See table below.) However, since targets were not set for 1999 or
                                           earlier years, and results were unavailable for the year 2000, we could not tell if
                                           intended results were being achieved.


                                           9
                                               Number One is a brand name for condoms repackaged and distributed by PSI in Cambodia.




                                                                                                                                                                                             21
______________________________________________________________________________________________________________________________________________________________________________________________




                                                                                    Condom Use from 1997 to 1999
                                                                                           (unaudited)
                                                                                             Planned           Actual
                                                                                  Year      (Percentage)     (Percentage)
                                                                                  2000                               75                              −
                                                                                  1999                               −                               70
                                                                                  1998                               −                               55
                                                                                  1997                               −                               43

                                                               This chart reports condom use for the years 1997 to 1999. As the table
                                                               illustrates, the Mission only established a performance target in year 2000.

                                           Condom use has been tracked for uniformed servicemen because national
                                           behavioral surveillance surveys have identified such servicemen as a “bridge
                                           population” for transmitting HIV to the general population. Since 1999, the
                                           IMPACT project has made this high-risk group a priority target for HIV/AIDS
                                           prevention by instituting a peer education program. The primary focus of the
                                           peer education program is to provide training and outreach to promote safe sex
                                           through condom use. The IMPACT project has complemented its peer
                                           education program with in-service STD Care training to military health care
                                           providers. The project also supports the host government’s 100 percent condom
                                           use policy and has carried out other sexual health programs.

                                           STD Care – Data for the sexually transmitted diseases (STD) indicator has only
                                           recently become available. Progress under this indicator is measured as the
                                           "Percentage of STD-clients in targeted facilities assessed and treated according
                                           to national standards." The reported result of 64 percent for the year 2000 (the
                                           first year for which such data is available) measures the percentage of
                                           individuals among high-risk populations with STDs in project supported
                                           facilities who were assessed and treated according to the national standards.

                                           Targets were also only recently established. According to the Mission’s
                                           performance monitoring plan, a baseline evaluation for the STD indicator was
                                           planned for 1999. However, due to a disagreement with the host government
                                           over a modification of the national protocol for STD treatment, the study to
                                           collect baseline data was only completed in 2000 and was reported as a baseline
                                           figure for that year (see chart below). Therefore, the audit cannot draw a
                                           conclusion since it is too early to tell if progress has been made.




                                                                                                                                                                                             22
______________________________________________________________________________________________________________________________________________________________________________________________




                                                                           STD Care Performance from 1999 to 20002
                                                                                         (unaudited)
                                                                                          Targets       Actual
                                                                              Year       (Percentage) (Percentage)
                                                                                    2002                          90                          −
                                                                                    2001                          75                          −
                                                                                    2000                          −                           64
                                                                                    1999                          −                           −
                                                         This chart illustrates that targets for STD Care were not set until 2001 and that
                                                         data on performance was available for 2001only.

                                           According to Mission documents, a leading cause for the HIV/AIDS epidemic in
                                           Cambodia is the high prevalence of sexually transmitted diseases (STDs), 50
                                           percent of which are asymptomatic. The presence of sexually transmitted
                                           disease places individuals with unsafe sex behaviors at a higher risk of acquiring
                                           an HIV infection. Therefore, prevention and early treatment of STDs can be an
                                           effective measure to contain the HIV epidemic. According to Mission data, a
                                           1996 study revealed that 44 percent of brothel-based sex workers and 17 percent
                                           of men examined had at least one STD infection. Lack of affordable STD drugs
                                           and drug resistance contributes to the high STD prevalence.10 To address the
                                           STD problem, Family Health International has provided in-service training to
                                           health care providers that serve high-risk groups, conducted STD surveys, and
                                           provided STD treatment to commercial sex workers.

                                           Progress in this area, however, remains questionable. FHI officials stated that
                                           the STD result of 64 percent was erroneous and was being recalculated in
                                           accordance with the national protocol for STD care. In addition, project inputs
                                           to date may be too limited to have measurable impact on the STD epidemic.
                                           The IMPACT project has trained only 46 and 25 health care providers in years
                                           2000 and 2001 respectively. A Mission study dated June 2001 also noted that
                                           the number of health care providers trained has been rather small to have a
                                           measurable impact on combating STDs in Cambodia.




                                           10
                                                HIV/AIDS Briefs, Cambodia and HIV/AIDS Summary, Agency for International
                                                Development, May 2001.




                                                                                                                                                                                             23
______________________________________________________________________________________________________________________________________________________________________________________________




                                                       This photograph shows an auditor and an STD clinic nurse discussing treatment
                                                       of commercial sex workers. (November 2001, Svay Pak, Cambodia)

                                           Increase Availability of Condoms in
                                           Provinces and Military Bases

                                           Population Services International (PSI) has yet to meet the cooperative
                                           agreement goal of increasing condom sales in provinces outside of Phnom Penh.
                                           According to the cooperative agreement with PSI, 70 percent of condom sales in
                                           the year 2000 were to be made in provinces outside of Phnom Penh. However,
                                           the audit found that only 47 percent or 7.5 million condoms were sold outside of
                                           Phnom Penh. PSI has not achieved this goal for two primary reasons. First,
                                           PSI has been unable to link up with a nationwide wholesaler. Second, PSI has
                                           focused on cost recovery as a management priority. As a result, condoms are
                                           still not widely available outside of Phnom Penh, especially in rural areas where
                                           about 83 percent of Cambodians live, and in remote military bases. Insufficient
                                           supply of condoms to those most at risk of contracting HIV/AIDS and other
                                           sexually transmitted diseases in remote areas may hamper the Mission’s efforts
                                           to reduce transmission of HIV/AIDS in Cambodia.

                                           According to the cooperative agreement, PSI established targets for condom
                                           sales outside of Phnom Penh at 65 percent of total sales in 1999, 70 percent in
                                           year 2000, and 65 percent in year 2001. However, only 52 percent, 47 percent,
                                           and 40 percent of total sales were distributed outside of Phnom Penh in 1999,
                                           2000, and 2001 respectively. The table below reports established targets and
                                           actual sales outside Phnom Penh from 1996 to 2001. As the table indicates, PSI
                                           has yet to attain the established targets.




                                                                                                                                                                                             24
______________________________________________________________________________________________________________________________________________________________________________________________




                                                           Planned and Actual Condom Sales Outside of Phnom Penh
                                                                               from 1996 to 2001
                                                                                  (unaudited)
                                                                          Planned condom         Actual condom
                                                                           sales outside of      sales outside of
                                                              Year
                                                                            Phnom Penh            Phnom Penh
                                                                             (Percentage)          (Percentage)
                                                               2001               65                    40
                                                               2000               70                    47
                                                               1999               65                    52
                                                               1998               65                    44
                                                               1997               50                    40
                                                               1996                −                    42

                                                  This chart illustrates PSI's planned and actual condom sales in areas outside of Phnom
                                                  Penh for the years 1996 to 2001.

                                           A USAID/Cambodia assessment dated June 2001 noted that PSI has not been
                                           able to link up with a nationwide distributor, and consequently, condoms are not
                                           widely available in rural areas. Moreover, the assessment found that while
                                           condoms are available in brothels, they are not readily available in hotels and
                                           guesthouses which are frequented by freelance commercial sex workers and
                                           their male clients.

                                           Additionally, the IMPACT project’s mid-term evaluation noted that condom
                                           availability in military camps has been limited and recommended that both FHI
                                           and PSI collaborate to ensure condom availability, especially in remote military
                                           sites. In a concept paper for collaboration with PSI dated 2001, FHI drafted a
                                           proposal to work with PSI to ensure availability of condoms for its peer
                                           education program in remote military bases. The proposal called for a pilot
                                           social marketing program among military units, a program which was, per
                                           project officials, turned down by the military authority because of the cost
                                           involved in acquiring condoms to military personnel.

                                           The national behavioral surveillance surveys have found uniformed servicemen
                                           to be at higher risk of contracting and transmitting HIV/AIDS than other groups
                                           because of mobility, separation from family for long periods, and a high
                                           frequency of soliciting sex. Although PSI has supported the host government's
                                           100 percent condom use policy by ensuring an adequate supply of condoms to
                                           brothels frequented by military servicemen, its efforts to make condoms
                                           available to the military did not start until 1999.

                                           In addition to the condom sales program, PSI entered into an agreement with the
                                           World Health Organization (WHO) in November 1999 to purchase 3.5 million
                                           condoms to be distributed free to Cambodian military servicemen. Under the



                                                                                                                                                                                             25
______________________________________________________________________________________________________________________________________________________________________________________________




                                           agreement, PSI is responsible for distributing condoms to 33 military units in 21
                                           provinces over one year from the date the agreement was signed.

                                           The following table reports on condoms distributed to the Cambodian military
                                           under the WHO agreement through the end of 2001.11

                                                                           Condom Distribution to Military since 1999
                                                                                         (unaudited)
                                                                                            Number of Condoms
                                                                             Year       Distributed  to Military Units
                                                                                               (million pieces)

                                                                                 2001                                              0.2
                                                                                 2000                                              1.4
                                                                                 1999                                              0.0
                                                             This chart shows PSI condom distribution to Cambodian military under
                                                             the World Health Organization agreement.

                                           So far, PSI has supplied a total of 1.6 million condoms to the Ministry of
                                           National Defense in Phnom Penh. The Ministry then redistributed condoms to
                                           military units in remote areas. As shown in the table, there was a decrease in
                                           distribution in 2001. There are two reasons for this. First, according to PSI
                                           officials, PSI had experienced a complete stock out of condoms in November
                                           2001. Second, PSI slowed distribution in 2001 due to allegations that
                                           Cambodian military commanders were selling condoms that were to be provided
                                           for free to uniformed servicemen.

                                           While we acknowledge that PSI has made efforts to meet its goal of increasing
                                           condom sales outside of Phnom Penh, it has fallen short of its targets. Because
                                           of great disparities in HIV/AIDS prevalence among different groups and
                                           geographic areas in Cambodia, we recommend that extra efforts be made to
                                           reach these under-served areas.

                                                         Recommendation No. 6: We recommend that USAID/Cambodia
                                                         coordinate with Population Services International to ensure
                                                         increased availability of condoms to provinces and military bases.




                                           11
                                                Sales figures in the table are obtained from PSI’s condom sales reports for years 2000 and
                                                2001.



                                                                                                                                                                                             26
______________________________________________________________________________________________________________________________________________________________________________________________




                                           What is the status of USAID/Cambodia’s efforts to meet anticipated
                                           HIV/AIDS reporting requirements?

                                           According to USAID/Cambodia officials, the Mission is at a transitional stage
                                           moving from the existing “special objective” to a new “strategic objective,”
                                           which will integrate HIV/AIDS and Reproductive and Child Health activities.
                                           Mission officials stated that the Mission will prepare a performance
                                           monitoring plan to achieve such integration and to address the new HIV/AIDS
                                           reporting requirements. These requirements are included in USAID’s draft
                                           “Expanded Response Monitoring and Evaluation Guidance.” This draft
                                           guidance, while not yet in effect, has nevertheless been widely circulated and
                                           discussed within USAID and is expected to be finalized in the near future.
                                           The guidance includes establishing and reporting on a limited number of key
                                           HIV/AIDS indicators (both at national and program-specific level), the use of
                                           standard indicators to monitor progress, and the specification of targets for
                                           achieving these changes in countries which are receiving increased funding
                                           for their HIV/AIDS programs.

                                           Due to the significant increase in HIV/AIDS funding from 1999 to 2001 (see
                                           chart on page 4), there has been a great deal of interest in monitoring the
                                           results of USAID assistance. In March 2000, USAID’s Global Bureau (now
                                           the Bureau for Global Health) developed a handbook of standard indicators
                                           that operating units could use to measure the progress of their HIV/AIDS
                                           programs. In March 2001, the U.S. General Accounting Office (GAO) issued
                                           its report on USAID’s fight against AIDS in Africa and the need to be able to
                                           better monitor progress. The GAO report recommended that USAID units
                                           adopt standard indicators to measure program performance, gather
                                           performance data on a regular basis, and report data to a central location for
                                           analysis.

                                           In response to the increased funding for HIV/AIDS programming, USAID
                                           initiated a “rapid response” program to allocate these funds. USAID’s draft
                                           monitoring and evaluation guidance establishes several global targets that
                                           USAID would need to achieve because of the additional funding and would
                                           require missions to routinely monitor and evaluate their HIV/AIDS programs
                                           in a definitive and systematic way. As a “rapid scale-up country,” the draft
                                           guidance would require USAID/Cambodia to implement this enhanced
                                           monitoring and reporting system. The system would collect and report
                                           information at three levels:

                                                 At the first level, USAID/Cambodia would be required, by 2007, to
                                                  develop a national sentinel surveillance system to report annually on HIV
                                                  incidence rates so as to measure the overall effect of national HIV/AIDS
                                                  prevention and mitigation programs. The standard indicator for this
                                                  measurement, according to the draft guidance, would be HIV



                                                                                                                                                                                             27
______________________________________________________________________________________________________________________________________________________________________________________________




                                                  seroprevalence rates for 15-24 year olds. USAID/Cambodia officials
                                                  stated that Family Health International has provided technical assistance to
                                                  Cambodia to establish a national surveillance system since 1996. As a
                                                  result, the Cambodian National Center for HIV/AIDS, Dermatology, and
                                                  STIs (NCHADS) already conducts annual surveys to measure the HIV
                                                  seroprevalence rates for the sexually active population.

                                                 The second level would require the implementation of frequent (every 3-5
                                                  years) standardized national sexual behavior surveys to begin in 2001.
                                                  Standard indicators proposed in the draft guidance for this area are “Number
                                                  of sexual partners” and “Condom use with last non-regular partner.”
                                                  USAID/Cambodia officials mentioned that the national surveillance system
                                                  has incorporated similar sexual behavior indicators. NCHADS has
                                                  conducted an annual Behavioral Sentinel Surveillance (BSS) among high-
                                                  risk groups since 1996.

                                                 At the third level, Missions would be required to report annually, not only
                                                  on trends at the national level—which may or may not reflect USAID-
                                                  funded activities—but on progress in implementing USAID’s HIV/AIDS
                                                  programs and increasing the proportion of the population covered by these
                                                  programs. The draft guidance lists seven standard indicators that
                                                  missions might use to measure progress in selected program areas.
                                                  USAID/Cambodia is presently reporting data similar to two of the
                                                  standard indicators: “percentage of sexually transmitted diseases cases
                                                  treated according to national standards” and “total condoms sold.”
                                                  Mission said it is also prepared to report on two other standard indicators
                                                  (“percentage of orphans/vulnerable children with access to community
                                                  services” and “percentage of HIV persons with access to basic care and
                                                  psychological support”) under the recently approved new strategy.

                                           In summary, Mission officials stated that they will address the anticipated
                                           reporting requirements under the Mission’s recently approved strategic plan.


 Management     In response to our draft report, USAID/Cambodia provided written comments
 Comments and that are included in their entirety as Appendix II. Based on the Mission’s
 Our Evaluation comments, management decisions have been reached on all report
                                           recommendations.

                                           For Recommendation No. 1.1, the Mission indicated that a Monitoring and
                                           Evaluation group was formed to develop a performance monitoring plan for
                                           the new strategic objective in collaboration with the Mission's partners.

                                           As for Recommendation No. 1.2, the Mission stated that during the design of
                                           the new strategic objectives process, Mission officials agreed to a set of



                                                                                                                                                                                             28
______________________________________________________________________________________________________________________________________________________________________________________________




                                           indicators based on Global Health Objectives, the Expanded Response
                                           Indicators for Monitoring and Reporting on HIV/AIDS Programs, the
                                           Guidance on the Expanded Response Monitoring and Evaluation, and the
                                           UNGASS12 Indicators. Mission also stated that the final list of indicators will
                                           be determined when the Monitoring and Evaluation group is reconvened in
                                           July-August.

                                           Regarding Recommendation No. 3, the Mission stated that it has initiated
                                           discussions with the Defense Contract Audit Agency to review PSI’s
                                           expenditures, adequacy of PSI’s internal control structure and compliance
                                           with the agreement terms and conditions.

                                           Concerning Recommendation No. 4, the Mission indicated that PSI had
                                           submitted a draft action plan to address the concern of inadequate internal
                                           controls raised in the audit report.

                                           In responding to Recommendation No. 5, the Mission stated that two
                                           indicators are included in the Mission’s Performance Monitoring Plan to
                                           measure progress in activities for children affected by AIDS.

                                           With respect to Recommendation No. 6, the Mission stated that PSI is
                                           working to identify local NGOs to distribute condoms to military camps at an
                                           affordable price. In addition, the Mission indicated that a dialogue with the
                                           Cambodian National Defense is underway to allow condoms to be sold in
                                           outlets on or around the premises of the military camps.




                                           12
                                                United Nations General Assembly Special Session on HIV/AIDS, coordinating body for
                                                the Global Fund.



                                                                                                                                                                                             29
______________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                               Appendix I


 Scope and                                 Scope
 Methodology
                                           RIG/Manila conducted this audit in accordance with generally accepted
                                           government auditing standards. The purpose of the audit was to determine
                                           (1) if USAID/Cambodia monitored performance of its HIV/AIDS program in
                                           accordance with ADS guidance, (2) if USAID/Cambodia is achieving
                                           intended results from its HIV/AIDS programs, and (3) the status of efforts to
                                           improve reporting on the results of the Mission’s HIV/AIDS programs.

                                           The Mission's HIV/AIDS program funding increased to $10 million in fiscal
                                           year 2001 (of which $7.6 million was obligated at the end of 2001) from $2.5
                                           million in 1999. Of the twelve HIV/AIDS indicators in the Mission’s
                                           performance monitoring plan, Mission officials and auditors judgmentally
                                           selected three for testing. These three indicators include (1) number of
                                           condoms sold during the last 12 months, (2) percentage of STD clients in
                                           targeted facilities assessed and treated according to national standards, and (3)
                                           percentage of men in target areas reporting always using condoms with
                                           commercial sex workers during the previous three months. Mission officials
                                           believed these three indicators give the best overall sense of progress being
                                           made in the HIV/AIDS program in the year 2000.

                                           We determined if intended results had been achieved based on whether the
                                           Mission met its fiscal year 2000 targets for the three indicators. We could not
                                           draw a definitive conclusion on two of the indicators—Condom Use and STD
                                           Care—because the Mission did not set performance targets for the indicator in
                                           its results report until the year 2000. Also, in evaluating for intended results,
                                           we recognized that, in many cases, other entities—including the host
                                           country—also participate in achieving these results. Fieldwork was
                                           conducted in Phnom Penh at USAID/Cambodia and the offices of Family
                                           Health International, Population Services International, and KHANA between
                                           November 4, 2001 and March 1, 2002.

                                           The Mission’s HIV/AIDS program has received additional funding from
                                           USAID’s Bureau for Asia and Near East and USAID's Bureau for Global
                                           Health. However, we limited the audit scope to evaluating the Mission
                                           funded-activities only.

                                           We used performance data reported in the national behavioral survey to
                                           measure results for condom use, and an STD survey study conducted by
                                           Family Health International in 2000 to measure results for STD Care. To
                                           identify targets for condom sales, we reviewed the cooperative agreement
                                           between USAID/Cambodia and PSI. We performed limited testing to
                                           ascertain the accuracy of the survey results. Our review of management



                                                                                                                                                                                             30
______________________________________________________________________________________________________________________________________________________________________________________________




                                           controls focused on USAID/Cambodia’s performance monitoring plan and
                                           how well the Mission complied with USAID policies and guidance.
                                           Additionally, we visited the HIV/AIDS unit of the Cambodian Ministry of
                                           Defense in Phnom Penh to review peer education program. We also visited
                                           an STD Care clinic and a brothel in Phnom Penh to review the IMPACT
                                           project supported mobile STD clinic. Finally, we visited PSI’s main
                                           warehouse and packaging facility in Phnom Penh.

                                           Methodology

                                           To answer the first audit objective, we reviewed the Mission’s performance
                                           monitoring plan and compared it to the requirements set forth in USAID’s
                                           Automated Directives System. We determined if data quality assessments
                                           were completed, baselines were established, and if data agreed to source
                                           documents. We also obtained information as to what other methods for
                                           monitoring HIV/AIDS program performance were being used by the Mission.

                                           To answer the second objective, we analyzed planned and actual data for the
                                           selected indicators presented in the Mission’s performance monitoring plan.
                                           Actual data were traced to source documents to verify accuracy of reported
                                           results. For example, to verify the accuracy of reported result for condom
                                           use, we traced those results back to the national behavioral survey at the
                                           Ministry of Health in Phnom Penh. Similarly, we traced the STD Care results
                                           to the STD survey results completed in 2001 by Family Health International in
                                           Phnom Penh. As for condom sales, we judgmentally selected eleven sales
                                           tickets at PSI's office and performed sales confirmation in Phnom Penh area.
                                           On February 26, 2002, we took a physical count of condom inventory at PSI
                                           stockrooms in Phnom Penh.

                                           For objective three, we reviewed USAID’s “Handbook of Indicators for
                                           HIV/AIDS/STI Programs,” USAID’s Expanded Response to the Global
                                           HIV/AIDS Pandemic—Monitoring & Evaluation Guidance (a draft dated
                                           February 2001) and the status of the Mission’s implementation of this
                                           guidance.

                                           An error threshold of one percent was established for testing the accuracy of
                                           data transcription and a plus or minus five-percent threshold was used to
                                           assess whether the reported results agreed with source documents.




                                                                                                                                                                                             31
______________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                                      Appendix II

                                                           UNITED STATES AGENCY FOR
 Management
                                                         INTERNATIONAL DEVELOPMENT
 Comments                                                   PHNOM PENH, CAMBODIA


                                                                           MEMORANDUM

                                             TO:                        Bruce Boyer, RIG/Manila                                                 DATE: June 10, 2002

                                             FROM:                      Lisa Chiles, Mission Director/s/                                                      REF:

                                             SUBJECT:                   Draft Audit Report for the Audit of USAID/Cambodia’s
                                                                        Monitoring of the Performance of Its HIV/AIDS Program

                                           As requested in your transmittal memo dated May 2, 2002, the Mission has
                                           reviewed the draft audit report for the Audit of USAID/Cambodia’s
                                           Monitoring of the Performance of Its HIV/AIDS Program. This memorandum
                                           contains our comments on the findings.

                                           First, may I tell you how pleased I am that the timing of the audit coincided
                                           with the Mission’s development of its new strategy, the Cambodia Interim
                                           Strategic Plan for 2002-2005, and with Cambodia’s designation as one of four
                                           USAID “rapid scale-up” countries. The audit found a need for the Mission to
                                           strengthen its monitoring system and to pay attention to several management
                                           areas of the HIV/AIDS program’s performance. It is fortunate that three
                                           inhibiting factors that hampered our ability to monitor and manage adequately
                                           in the past have now been corrected.

                                           First, funding for the program is now both adequate and predictable. Until FY
                                           2001 annual resources were not guaranteed, and the level of funding was
                                           subject to great variance. Under those circumstances, planning and target
                                           setting was nearly impossible. Second, USAID is now working in partnership
                                           with the Royal Government of Cambodia (RGC) to plan and implement the
                                           HIV/AIDS program. Prior to this fiscal year, legislative and policy
                                           prohibitions on engagement with the RGC at the national level limited our
                                           control over many variables. For example, the inability to jointly conduct a
                                           national sexually transmitted diseases (STDs) survey led to long delays which
                                           prevented our establishing baseline data required for a performance
                                           monitoring plan to set targets for STD care and to monitor results. Third, the
                                           USAID/Cambodia Office of Public Health (OPH) now has six professional
                                           staff, including both a senior technical advisor on monitoring and evaluation
                                           and a TAACS technical advisor on HIV/AIDS behavioral change, with



                                                                                                                                                                                             32
______________________________________________________________________________________________________________________________________________________________________________________________




                                           current recruitment for an additional two professional staff. For the first time
                                           since USAID returned to Cambodia, OPH will be adequately staffed to
                                           perform all the functions required of a USAID public health presence in a
                                           country, with staff dedicated solely to monitoring and evaluation.

                                           The following sections describe actions already taken, in process, or planned
                                           to implement the new Strategic Objective (SO 442-009) Increased Use of
                                           HIV/AIDS and Family Health Services which, at the same time, address and
                                           implement the audit recommendations.

                                           I. Did USAID/Cambodia monitor performance of its HIV/AIDS program in
                                           accordance with Automated Directives System (ADS) guidance?

                                           Need to Strengthen Performance Monitoring Plan and Establish
                                           Performance Targets

                                           Recommendation No. 1: We recommend that USAID/Cambodia:
                                           1.1 prepare a performance monitoring plan for the Mission’s new
                                           strategic plan in accordance with the ADS.

                                           Following the approval of the new HIV/AIDS-Family Health SO, the
                                           Monitoring and Evaluation (M&E) Advisor and the rest of the OPH team,
                                           through a collaborative effort with the mission’s current partners, began to
                                           develop work plans, including indicators, for the three-year strategy, 2002-
                                           2005. The participants in this planning process agreed to a draft core set of
                                           20 outcome and impact indicators, and an M&E working group was formed to
                                           develop the performance and monitoring plan for the new SO, to determine
                                           the need for a baseline survey in the targeted operational districts and to
                                           finalize the indicators.

                                           The primary objective of the M&E working group is to reach agreement on a
                                           common M&E framework. This umbrella framework will provide the
                                           guidelines within which each of the funded partners will implement their
                                           individual M&E systems. Partners will work together to determine how best
                                           to collect and report on progress, while at the same time continuing to collect
                                           and report data individually or collectively. Ideally, this commonly shared
                                           framework will include a shared database into which all partners can enter
                                           their data so that OPH can ensure complete data and up-to-date data.

                                           OPH is currently testing a Microsoft ACCESS-based reporting system with
                                           the idea of having one uniform format for reporting by all funded partners,
                                           which would easily feed into the performance monitoring plan. The work
                                           plans for the next three years, recently submitted to OPH, and currently
                                           undergoing review, were submitted in this format.




                                                                                                                                                                                             33
______________________________________________________________________________________________________________________________________________________________________________________________




                                           1.2 establish performance targets as required by USAID guidance to
                                           allow a determination of whether the HIV/AIDS program is making
                                           progress.

                                           During the new SO design process, the plenary group agreed to a core set of
                                           outcome and impact indicators based on 1) the Global Health Objectives (Feb
                                           2002), 2) the Expanded Response Indicators for Monitoring and Reporting on
                                           HIV/AIDS Programs (April 9, 2002), 3) the Guidance on the Expanded
                                           Response Monitoring and Evaluation (April 30, 2002), and 4) the UNGASS13
                                           indicators. The precise definitions for this core list of indicators are from
                                           these source documents. Possible modifications to the definitions are
                                           anticipated for a few indicators where it makes the most sense for Cambodia
                                           and where agreement has been reached with the USAID HIV/AIDS Office in
                                           Washington. The final list of core indicators for Cambodia will be
                                           determined when the M&E working group is reconvened in July-August,
                                           following approval of activities and work plans of the implementing partners.

                                           The National Center for HIV/AIDS, Dermatology and STDs (NCHADS)
                                           recently presented the results of the 2001 Behavioral Sentinel Surveillance
                                           (BSS) and a thorough analysis of behavioral trends for male and female
                                           respondents from BSS data collected since 1997. Prevalence projections
                                           were also presented the same week according to the Asia Epidemic Model
                                           (AEM) developed by NCHADS and FHI. In addition, the OPH Technical
                                           Advisor for M&E and the Coordinator for the US Centers for Disease Control
                                           – Global AIDS Program (CDC-GAP) for Cambodia, attended the global BSS
                                           monitoring meeting held in Bangkok on 13-15 May. As far as national sero-
                                           prevalence and behavioral data are concerned, the Cambodia Mission is in a
                                           strong position to report reliable and valid trend data to help explain outcomes
                                           and impact related to prevention efforts.

                                           OPH was recently informed that the Global USAID indicators for HIV/AIDS
                                           care and support will be field tested in Cambodia. In addition, OPH is
                                           considering other viable methods for assessing the new integrated SO at the
                                           Operational District level to enable collection of data relevant to maternal and
                                           child health, HIV care and support, and other infectious diseases.

                                           Mission Should Assess Data Quality

                                           Recommendation No. 2: We recommend that USAID/Cambodia assess
                                           the quality of performance data and document the procedures to be used
                                           in the performance monitoring plan as required by Agency directives.

                                           During the auditor’s February visit to Cambodia, she took the time to introduce

                                           13
                                                United Nations General Assembly Special Session on HIV/AIDS, coordinating body for the
                                                Global Fund. Cambodia was recently awarded one of the competitive grants.



                                                                                                                                                                                             34
______________________________________________________________________________________________________________________________________________________________________________________________




                                           the Technical Advisor for M&E to The Performance Management Toolkit; A
                                           Guide to Developing and Implementing Performance Monitoring Plans. This
                                           guidance encourages proper documentation to facilitate the maintenance of
                                           quality performance indicators and data. Furthermore, the Performance
                                           Indicator Reference Sheet provides the opportunity to note data quality ‘issues’,
                                           such as any known limitations and significance to the data, actions taken or
                                           planned to address the limitations and procedures for data quality assessment.
                                           The auditor also shared a ‘good’ example of a completed set of Performance
                                           Indicator Reference Sheets from another country, and another ‘good sample’
                                           was provided to OPH, Cambodia from the ANE Bureau. These strong
                                           examples, together with the guidance from the Toolkit, are being consulted
                                           regularly in the development of the new PMP.

                                           Limitations for measuring trends emerge in any evaluation system when
                                           periodic modifications occur to the survey instrument(s) and the sampling
                                           procedures. USAID has been limited in its ability to prevent changes in the
                                           surveillance system since the NCHADS has complete responsibility for the
                                           national HIV surveillance system (both the HSS and BSS). Now that
                                           USAID/Cambodia can fully engage with the RGC, it is in a much better
                                           position, through direct support, to work closely with and influence the
                                           NCHADS on the surveillance system.

                                           Improved data reliability from the National Health Information System
                                           (NHIS) is anticipated over the course of the three-year strategy. Now that
                                           USAID/Cambodia can engage with the RGC, the ANE Bureau has offered to
                                           send a team of experts to Cambodia to assess the NHIS and other national
                                           infectious diseases surveillance systems and to make recommendations for
                                           their improvement. It is planned that this assessment will take place in
                                           August to coincide with the WHO Consensus Meeting for HIV/AIDS
                                           surveillance.

                                           PSI Needs to Implement Controls Over its Operations in Cambodia

                                           Recommendation No. 3: We recommend that USAID/Cambodia contract
                                           for a review of all expenditures charged under the Population Services
                                           International agreement since 1998 for allowability, reasonableness, and
                                           allocability.

                                           With regard to the recommended review, the Mission has initiated discussions
                                           with the Defense Contract Audit Agency (DCAA) on the review of PSI’s
                                           expenditures, adequacy of PSI’s internal control structure and compliance with
                                           the agreement terms and conditions. A scope of work (SOW) has been
                                           developed for a delivery order that will be issued to the DCAA under its existing
                                           participating agency service agreement with USAID/Manila. The SOW is
                                           currently in the clearance process. The planned date for commencement of the



                                                                                                                                                                                             35
______________________________________________________________________________________________________________________________________________________________________________________________




                                           PSI review is mid-August 2002 which is the earliest date that DCAA auditors
                                           would be available.

                                           Recommendation No. 4: We recommend that USAID/Cambodia work
                                           with Population Services International to establish a plan to implement
                                           acceptable controls over project operations especially in the areas of cash
                                           transactions, condom sales, condom inventory, segregation of duties, and
                                           procurement.

                                           In April 2002, the Mission met with PSI to discuss the audit findings;
                                           consequently, PSI submitted a draft plan of action to address the issues raised
                                           in the report. Moreover, in mid-June, PSI/Cambodia is bringing in an
                                           accounting/controller staff from its home office to review local operations and
                                           assist the country representative in developing an expanded plan of action to
                                           strengthen its internal controls.

                                           Need to Establish Performance Measures for Children Affected by AIDS
                                           Activities

                                           Recommendation No. 5: We recommend that USAID/Cambodia include
                                           appropriate performance measure(s) in its performance monitoring plan
                                           to measure the results of its activities for children affected by AIDS.

                                           Two proposed indicators, both of them on the standard indicator list of the
                                           enhanced monitoring and reporting system for rapid response program
                                           countries, are included in the PMP to measure progress in activities for
                                           children affected by AIDS.

                                           One of the major limitations of data reported to OPH in the past is that the
                                           denominators were missing. In order to report an accurate representation of
                                           the level of the problem associated with children affected by AIDS, Family
                                           Health International, in partnership with KHANA, propose to determine the
                                           extent of the CAA problem in the targeted districts to complement the existing
                                           data from UNAIDS. This effort should produce a denominator in order to
                                           provide better baseline and realistic targets for reducing the effects of
                                           HIV/AIDS on children, especially for the targeted Operational Districts.

                                           Is USAID/Cambodia achieving intended results from its HIV/AIDS
                                           program?

                                           Recommendation No. 6: We recommend that USAID/Cambodia
                                           coordinate with Population Services International to ensure availability
                                           of condoms to provinces and military bases.

                                           Since the recommendation as currently stated is not within



                                                                                                                                                                                             36
______________________________________________________________________________________________________________________________________________________________________________________________




                                           USAID/Cambodia’s management control, the Mission requests that this
                                           recommendation be revised to read as follows:

                                           We recommend that USAID/Cambodia coordinate with Population
                                           Services International to ensure increased availability of condoms to
                                           provinces and military bases.

                                           During the recent intensive design process for the new HIV/AIDS and Family
                                           Health SO, USAID/Cambodia and its implementing partners have realized
                                           and called attention to the need to improve access to condoms as well as other
                                           health products among rural populations. Further, it is important to note that
                                           in the integrated strategy, the HIV/AIDS prevention program has greatly
                                           expanded its scope. The previous focus was just on the high-risk population
                                           of direct sex workers, military and police in high prevalence “hotspots” in the
                                           high priority geographical areas of the 1997 Strategic Plan of the National
                                           AIDS Program. The new focus adds the broader at-risk population in
                                           selected operational districts of the public health system as well as indirect sex
                                           workers, mobile populations, migrant workers, youth, and “sweethearts.”

                                           In response to the findings and Recommendation # 6 relating to the
                                           availability of condoms in provinces and military bases, the Mission obtained
                                           inputs from PSI and, from those comments, provides the following additional
                                           clarifying information:

                                           1) On page 25, the report states: "However the audit found that only 47
                                              percent ... of condoms were sold outside of Phnom Penh. PSI has not
                                              achieved this goal for two primary reasons. First PSI has been unable to
                                              link up with a national wholesaler. Second, PSI has focused on cost
                                              recovery as a management priority. As a result, condoms are still not
                                              widely available outside of Phnom Penh, especially in rural areas... and in
                                              remote military bases."

                                           This statement is misleading for several reasons:

                                           The 47% figure quoted comes from PSI’s Management Information System
                                           (MIS), which currently is only able to track condom sales to the first point of
                                           the distribution chain. Many of the sales in Phnom Penh are wholesale sales,
                                           most notably those made to the wholesale outlets in Olympic Market and
                                           others made to NGOs partners, from which the condoms end up in the outer
                                           provinces. The Olympic Market is an important feeder for pharmaceutical
                                           products to the rest of the country. For this reason, PSI has chosen those
                                           channels as a key means for cost-effectively getting products to more rural
                                           areas.

                                           In all likelihood the number of condoms reaching consumers in rural areas is



                                                                                                                                                                                             37
______________________________________________________________________________________________________________________________________________________________________________________________




                                           much higher than stated in the MIS. Unfortunately, PSI has not been able to
                                           measure achievements towards its goal of selling condoms outside Phnom
                                           Penh with its MIS. To remedy this, a distribution survey will be conducted in
                                           June 2002 which will provide PSI data as to what the urban/rural penetration
                                           of PSI products is and through which different kinds of outlets. This
                                           distribution survey will serve as a baseline for improving rural sales in the
                                           upcoming three-year project period. There are very few national wholesalers
                                           in Cambodia, and it is not likely that PSI will be able to link up with one of
                                           them in the near- to mid-term.

                                           While social marketing is founded on the notion of cost recovery, it is
                                           misleading to say that cost recovery is a management priority. PSI strives to
                                           set prices for its products to be the lowest possible: low enough for poor
                                           people to afford them, but high enough for people to attach value to them and
                                           high enough for commercial and other partners to earn a sufficient margin to
                                           motivate them to carry and promote the products. In essence, PSI sets its
                                           prices to maximize sales, not revenues; to build markets, not monopolize
                                           them. Indeed, the social marketing cost recovery philosophy does not hinder
                                           rural sales; but rather promotes them – it is the very basis of why social
                                           marketing programs have been so successful around the world.

                                           2) On page 26: "In a concept paper for collaboration with PSI dated 2001, FHI
                                              drafted a proposal to work with PSI to ensure availability of condoms for its
                                              peer education program in remote military bases. The proposal called for a
                                              pilot social marketing program among military units, a program, which was,
                                              per project officials, turned down by the military…."

                                           Increasing distribution to the military has been a tough nut to crack, but not
                                           for want of trying. PSI believes progress has been made and the Mission
                                           agrees. One major constraint to PSI’s plan to work with FHI through its peer
                                           education program with the military was that initial inquiries into pilot social
                                           marketing activities were spurned by the military. Thus, FHI wanted to
                                           provide large numbers of condoms for free -- something that is inconsistent
                                           with the very concept of social marketing and which PSI’s donors do not want
                                           it to do. Progress on this impasse is finally being made (see below).

                                                  And then on page 27: "as shown on the table, there was a decrease in
                                                  distribution in 2001. There are two reasons for this. First according to
                                                  PSI officials, PSI experienced a complete stock out of condoms in
                                                  November 2001….”

                                           PSI reports that this stock-out mentioned above was very brief (less than two
                                           weeks) and was not a significant factor in low level of distribution to the
                                           military for the whole year.




                                                                                                                                                                                             38
______________________________________________________________________________________________________________________________________________________________________________________________




                                           What Lies Ahead

                                           Rural Distribution – The integrated nature of USAID/Cambodia’s new
                                           Strategic Objective will enable the implementing partners to expand condom
                                           availability into rural areas. PSI plans to conduct a distribution survey in
                                           June to August 2002 which will establish a baseline in terms of condom
                                           availability by outlet type and urban vs. rural. PSI has already begun a
                                           significant expansion into rural and more vulnerable areas via the United
                                           Health Network (UHN) initiative. In this initiative PSI will identify, train
                                           and supply NGOs (especially community-based NGOs that work with poor
                                           populations and groups engaging in high risk behaviors) throughout the
                                           country to social market condoms and other health products in the provinces.
                                           In the absence of a national distributor, PSI is working at the provincial level
                                           to identify various partners who can essentially serve as distributors,
                                           wholesalers, and retailers of health products. PSI has already built
                                           collaboration and networking among USAID’s implementing partners CARE,
                                           FHI, KHANA, PFD, RHAC, and RACHA, as well as with other NGOs
                                           working in health service delivery systems and communities, including
                                           PACT, Medecins Sans Frontieres (MSF), Pharmaciens Sans Frontieres (PSF),
                                           Health Net, 24 Hour Television Charity Committee, Cambodia NGO Forum,
                                           Battambang Women’s AIDS Project, and Indradevi Association.

                                           Military Distribution - Discussions are underway between PSI, WHO (the
                                           current provider of condoms for FHI’s program with the military), FHI, and
                                           the HIV/AIDS Unit Director of the Ministry of National Defense (MoND) to
                                           find a long-term solution which will ensure the supply of condoms to military
                                           personnel throughout the country. Caution is necessary for the following
                                           reasons: 1) the current military position is that condoms should be given
                                           away freely; 2) it is not clear whether it is an appropriate role for PSI to
                                           distribute condoms on a large scale to its government partners, and 3) there is
                                           the potential of the military reselling large quantities of condoms on the open
                                           market. While discussions for a long-term solution continue, the following
                                           short-term remedies are planned:

                                                 -As part of the UHN Initiative described above, PSI will work to identify
                                                 appropriate local NGOs who are currently working or potentially could
                                                 work with the military and then supply those NGOs training, products, and
                                                 other support (such as BCC and promotional materials). The condoms
                                                 would be sold to the NGOs at a discount to ensure that the final price to
                                                 military personnel is affordable.

                                                -The Ministry of National Defense has indicated that, while not wanting to
                                                 be engaged in social marketing itself, it may allow condoms to be social
                                                 marketed in outlets on or around the premises of the military camps.
                                                 These outlets could then be supplied either directly by PSI sales staff or by



                                                                                                                                                                                             39
______________________________________________________________________________________________________________________________________________________________________________________________




                                                  NGO members of the UHN Initiative.

                                           OPH will discuss this issue with relevant implementing partners in their work
                                           plan development process and coordinate action to ensure condom availability
                                           in target areas.

                                           What is the status of USAID/Cambodia’s efforts to meet anticipated
                                           HIV/AIDS reporting requirements?

                                           As presented in this memorandum in response to the draft audit findings,
                                           USAID/Cambodia is developing and will implement a performance
                                           monitoring plan which will meet the reporting requirements of a “rapid
                                           response” program. Progress so far includes selection of key HIV/AIDS
                                           indicators at both national and program-specific levels, adoption of globally
                                           accepted standard indicators to monitor progress, and assignment of respective
                                           roles and responsibilities for data collection, quality assessment and reporting.
                                           The next required steps, which are scheduled over the next several months, are
                                           the specification of targets and the collection of baseline data, implementation
                                           of standard measurement tools for gathering performance data on a regular
                                           basis, followed by data analysis and progress reporting. USAID/Cambodia
                                           now has an adequate and secure funding base, sufficient staff to perform all
                                           the office’s functions, and a working relationship with the Royal Government
                                           of Cambodia that will enable us to accomplish planned results.

                                           USAID/Cambodia is fortunate in that it had the foresight to fund the
                                           development of systems that already collect and report information at two of
                                           the three levels required to implement the enhanced monitoring and reporting
                                           required of “rapid response” countries: a national sentinel surveillance system
                                           to report annually on HIV incidence rates and a standardized national sexual
                                           behavior survey to report findings every three to five years. These systems
                                           are institutionalized in the RGC. A system for the third level of reporting –
                                           on progress in implementing USAID’s HIV/AIDS programs and increasing
                                           the proportion of the population covered by these programs – will be in place
                                           by the end of this year.




                                                                                                                                                                                             40
______________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                                    Appendix III


Rapid Scale-Up, Intensive Focus, and Basic Countries
                                                 Rapid Scale-Up Countries are defined as countries that will receive a
                                                  significant increase in resources to achieve measurable impact within one-
                                                  to-two years. This will result in an extremely rapid scaling up of
                                                  prevention programs and enhancement of care and support activities.
                                                  Rapid Scale-Up countries include:

                                                  Cambodia                        Kenya                   Uganda                     Zambia

                                                 Intensive Focus Countries are defined as countries where resources will be
                                                  increased and targeted to reduce prevalence rates (or keep prevalence low
                                                  in low prevalence countries), to reduce HIV transmission from mother to
                                                  infant and to increase support services for people (including children)
                                                  living with and affected by AIDS from three to five years of age.
                                                  Intensive Focus Countries include:

                                                  Ethiopia                                          Nigeria                                                   Brazil
                                                  Ghana                                             Rwanda                                                    India
                                                  Malawi                                            Senegal                                                   Russia
                                                  Mozambique                                        South Africa
                                                  Namibia                                           Tanzania

                                                 Basic Countries are defined as countries that USAID will support host
                                                  country efforts to control the pandemic. USAID programs will continue
                                                  to provide assistance, focusing on targeted interventions for populations
                                                  who engage in high-risk behavior. In these countries, there will be an
                                                  increased emphasis on maintaining credible surveillance systems in order
                                                  to monitor HIV trends and allow timely warning of impending
                                                  concentrated epidemics of HIV. In addition, USAID will assist country
                                                  institutions to identify additional sources of funding to expand
                                                  programming.




                                                                                                                                                                                             41
    _____________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________________




                                                                                                                                                                                                                                                               Appendix IV




                                                  Summary of USAID/Cambodia’s Performance Monitoring Controls Reviewed by the Audit

                                                                                                Performance Monitoring Plan
                                              1.                     2.                   3.                    4.                    5.                        6.                   7.                                                                                         11.
                                                                                                                                                                                                           8.                     9.                    10.
          Indicator                        Indicator               Data                 Data                  Data               Responsibility               Data                Quality                                                                                Other Means of
                                                                                                                                                                                                          Data                 Baseline                Data
                                           Precisely              Sources             Collection            Collection             Assigned                Limitations           Assessment                                                                                Monitoring
                                            Defined              Identified            Method               Schedule                                        Disclosed            Procedures             Quality               Established             Agrees
                                                                                                                                                                                                                                                                         (If yes, indicate
                                                                                      Described             Specified                                                            Described             Assessment                                       To
                                                                                                                                                                                                                                                                               type)
                                                                                                                                                                                                          Done                                        Source

Percentage of men in target
areas reporting always using
condoms with commercial                                                                                                                                                                                                                                                 Yes (External Mid –
                                               No                    Yes                   Yes                   Yes                     No                     Yes                    No                     No                     Yes                 Yes
sex workers during the                                                                                                                                                                                                                                                   Term Evaluation)
previous three months



Number of Number One
                                                                                                                                                                                                                                                                         Yes (Semi annual
Condoms sold in project                        No                    Yes                   Yes                   Yes                     No                     Yes                    No                     No                     Yes                 No
                                                                                                                                                                                                                                                                         Progress Report)
areas in past 12 months



Percentage of STD clients in
targeted facilities assessed                                                                                                                                                                                                                                            Yes (External Mid-
                                              Noa                    Nob                   No                    Yes                     No                     N/A                    No                     No                    Yesc                Nod
and treated according to                                                                                                                                                                                                                                                Term Evaluation)
national standards



                  a. According to the Mission's PMP, the current definition of this indicator includes identifying the types of sexually transmitted disease assessed and treated
                     as an element of the definition. The Mission's PMP and results report did not identify types of STDs.

                  b. According to the Mission’s PMP, the baseline assessment for the indicator was planned in year 1999 based on an external evaluation of STD clinics supported by
                     Family Health International. However, two staff members of Family Health International collected baseline data by completing a STD survey study in April 2000.

                  c. According to the Mission's PMP, the Mission planned to report the baseline measure in year 1999. Due to delay in conducting baseline assessment by Family Health
                     International, the Mission reported the baseline assessment only in year 2001.

                  d. According to Family Health International officials, the baseline assessment reported by the Mission in year 2001 was erroneous and being recalculated

                                                                                                                                                                                                               42
